No. 19-783

 

In the Supreme Court of the Anited States

NATHAN VAN BUREN,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

CERTIFICATE OF COMPLIANCE
I certify that the document, BRIEF OF KAREN HEART AND ANTHONY VOLINI
OF CIPLIT AS AMICI CURIAE IN SUPPORT OF RESPONDENT, filed in the above-

styled cause, contains 4,460 words, which complies with the word limitations set out
in the Rules of this Court.

Date: Sep. 2, 2020

 
   

Kaas
Karen Heart
Counsel of Record
CENTER FOR INTELLECTUAL
PROPERTY LAW & INFORMATION
TECHNOLOGY
DePaul College of Law
25 K. Jackson Blvd.
Chicago, IL 60604
(312)362-1469
kheart@depaul.edu

 
